                             U.S. Department of the Interior
                               Office of Inspector General



           “The volunteer
 workforce has proven to
  be an important adjunct
to the Federal workforce,
  assisting with hundreds
          of programs and
                projects.”
     – DOI Strategic Plan,
          FY 2007-2012
 




     Evaluation of the Department of the Interior’s
    Recruitment, Screening, Selection, and Training
              of Departmental Volunteers


Report No. W-EV-MOA-0004-2008                            March 2008
Cover Photos (Clockwise from Top to Bottom):

                   An FWS volunteer shows children catfish from petting tank
                   (http://www.fws.gov/dls/default.cfm?CFID=8380164&CFTOKEN=52797223);
                   volunteers help to clean up at the BLM Ash Springs Rock Art Site
                   (http://www.nv.blm.gov/ely/education.htm); and, a volunteer assists with the outdoor
                   education program at Arches National Park (NPS Photo by Neal Herbert,
                   http://www.nps.gov/volunteer/)
                       United States Departm
                                           ment of the Inte
                                                          erior
                                      OFFICE OF
                                             O INSPECTOR GENE
                                                            ERAL
                                               W
                                               Washington, D 20240
                                                           D.C.



                                                                                         March 7, 2008

Memoranndum

To:             Assisttant Secretarries
                Headss of Bureauss and Officess

From:           Earl E.
                     E Devaney
                Inspecctor Generall

Subject:            uation of the Departmentt of the Interiior’s (Deparrtment) Recrruitment,
                Evalu
                Screen
                     ning, Selectiion, and Training of Deppartmental Volunteers
                                                                      V
                (W-EVV-MOA-00004-2008)

        We identified
        W             d and evaluatted the Depaartment’s reqquirements for f recruitingg, screening,,
selectingg, and trainin
                      ng its volunteeers and the Departmentt’s success inn following these
                                                                                       t
requiremments. We allso determined whether ethics e      traininng and backgground invesstigations weere
routinelyy required annd performedd for volunteeers. To com   mplete our evvaluation, we looked at six
                                                                                                    s
of the eigght bureaus within
                       w      the Department
                                  D             w a signifiicant level off volunteerissm, namely, the
                                                with
Bureau ofo Land Man   nagement (BL  LM), Bureauu of Reclam   mation, Bureaau of Indian Affairs, U.SS.
Fish and Wildlife Serrvice (FWS)), National ParkP      Service (NPS), and U.S. Geologgical Servicee.
We intervviewed know  wledgeable agency
                                    a       officcials, who provided us with
                                                                          w policies anda informaation
regardingg the volunteeer program..


                                        Resultss of Evaluattion

         We concluded
         W              d that additional guidancce on
recruitingg, screening,, and selectinng volunteerrs,
includingg background   d investigatiions, is not needed.
                                                  n
Howeverr, we found that t training should be expanded
to includde Departmen   ntal ethics reequirements during
the initiaal orientation
                       n of volunteeers to bureauu missions
and proposed work assignments.
                       a

Background

       T Departm
       The         ment has placed an ever inncreasing
emphasiss on the use of volunteerrs in carryingg out its
mission. According to its 2007 Performance
                                 P            e and
Accountaability Report, volunteerrs contributeed over 9
million hours
        h     of serv
                    vice valued at
                                a almost $1773 million

                                                    1
in supporting the Department’s mission activities. NPS has the most volunteers followed by
FWS and BLM. Collectively, the three bureaus account for 87 percent of volunteers within the
Department.

        Volunteer programs are decentralized and managed by individual bureaus, which provide
overall guidance on the programs. Actual recruitment, screening, selection, and training of
volunteers are done by bureau field offices. The Departmental level Take Pride in America
Office, which reports to the Office of the Secretary, acts only as a clearinghouse and facilitates
public relations on the benefits of volunteering on public lands. Although volunteer programs
are decentralized, there is coordination among bureaus through the Federal Interagency Team on
Volunteerism (FITV), a coalition of federal land management agencies.

Summary of Evaluation

Recruitment, Screening, and Selection

        Volunteers are recruited primarily by “word of mouth,” such as through professional
societies, and Internet sites, such as http://volunteer.gov/gov/, hosted by FITV. Prior to actual
service, volunteers must complete bureau-specific application forms and volunteer agreements.
These forms identify those terms that both the volunteer and bureau agree to and clarify that the
volunteer is to be treated as a federal employee only for the purposes of federal torts and
worker’s compensation. Interviews at the field office are used to match the volunteer’s area of
interest to the bureau’s need.

        As of August 2004, Departmental volunteer programs are subject to the Homeland
Security Presidential Directive 12 (HSPD-12), which requires that federal agencies implement a
mandatory, government-wide standard for secure and reliable forms of identification for federal
employees and contractors, as well as for volunteers who serve longer than 180 days. To meet
this standard, agencies conduct background investigations, adjudicate the results, and issue
personal identification verification cards. Investigations are conducted through the Office of
Personnel Management. Bureaus bear the costs for background investigations and issuance of
personal identification verification cards, which can range from $185 to $220.

       The Department plans to complete implementation of HSPD-12 by December 2008.
While the Department has reported that it has completed the majority of background checks for
its employees and contractors, work is still needed to complete background checks for
volunteers. As of December 2007, almost 3,000 background checks were required for persons
categorized as “other individuals,” which includes, but is not limited to, volunteers serving for
over 180 days. NPS and BLM reported to us a combined 214 background checks completed on
volunteers within fiscal years 2005 and 2006. As the Office of Management and Budget did not
issue guidance on HSPD-12 until August 2005, we encourage bureaus to continue completing
implementing HSPD-12 with respect to volunteers.




                                                2
Training

        While no bureau provides specific training programs, generally, bureaus provide basic
safety instruction during the volunteer’s general introductory orientation. Any further training is
most likely to be “on-the-job.” Additionally, special certification or training may be needed
depending on the volunteer’s duties, such as collecting fees or using hazardous equipment.

        We concluded, however, that additional training is needed for all volunteers in the areas
of ethics and appropriate behavior. This training would inform volunteers about their basic
obligation of public service as well as the appropriate use of government property and
information. With almost three times as many volunteers as there are Departmental employees
working on public lands, this training is especially needed as all volunteers, regardless of the
amount of time served, are considered to be federal employees in the matter of federal tort
claims. Ethics training is also essential in emphasizing the conduct and behavior expected of
volunteers representing the federal government. In a November 2006 letter to new
Departmental employees, Secretary Kempthorne emphasized the need for “an ethics culture that
is beyond reproach.” To help facilitate this culture, employees are directed to two sources to
help familiarize themselves with ethics laws and regulations: (1) an ethics guide entitled
“Making Ethics a Part of the Workplace” and (2) the Department’s or bureau’s key ethics
officials. We believe that including this basic ethics information in the volunteers’ general
introductory orientation would help manage the risk inherent in the use of volunteers to perform
Departmental work and meet Departmental goals and objectives.

Suggested Actions

       1.      Continue completion of background checks for eligible volunteers to meet the
               December 2008 implementation of HSPD-12.

       2.      Include basic ethics information, including the ethics guide “Making Ethics a Part
               of the Workplace,” to volunteers during their general introductory orientation and
               provide volunteers with the contact information for key Departmental ethics
               officials.

        The legislation, as amended, that created the Office of Inspector General requires that we
report to Congress semiannually on all reports issued. As part of our effort to fulfill this
obligation, we will track the status of suggestions made to the Department in this report and will
report this information to Congress. Therefore, please provide us with documentation on actions
taken to implement the suggestions so we may close them when no further action is required. If
we do not receive information, we will contact you on a periodic basis for updates on the
implementation status of the suggestions.

       We appreciate the cooperation shown by the Department during our evaluation. If you
have any questions about our work or report, please do not hesitate to call me at (202) 208-5745.




                                                 3
cc:   Audit Liaison Officer, Office of the Secretary, Nancy Thomas, MS 2557
      Audit Liaison Officer, National Park Service, Vera Washington (1201 I St., NW)
      Audit Liaison Officer, Bureau of Land Management, Andrea Nygren (MS 1000 L St.)
      Audit Liaison Officer, Bureau of Reclamation, Elaine Ferrari, Denver, CO
      Audit Liaison Officer, Bureau of Indian Affairs, Michael Olivia, Reston, VA
      Audit Liaison Officer, U.S. Geological Survey, Rebecca Bageant, Reston, VA
      Audit Liaison Officer, U.S. Fish and Wildlife Service, Jacob Lee (MS 222 ArlSq)
      Audit Liaison Officer, Minerals Management Service, Acting Shelley Wills, MS 4212
      Audit Liaison Officer, Office of Surface Mining, Towanna Thompson, MS 244 SIB




                                            4
